                                   Closeout for M99030018

In March of 1999, OIG received allegations of misconduct in regard to two NSF awards
(awards 1' and 22) and a case was opened. The complainant3 alleged that three subjects
(subjects 14, Z5, and 36) misrepresented biographical information in their relevant NSF
awards. The complainant also alleged that a.flyer, advertising graduate research fellowships
funded through award 1, contained misleading information.

The complainant alleged that subject 1, the PI of award 1, made false publication claims in
his biographical information in award 1. Subject 1listed a total of nineteen publications. All
of the publications listed by subject 1were verified through various searches of the scientific
literature. We conclude that subject 1 made no false publication claims in his biographical
information in award 1.

The complainant alleged that subject 2, a principal faculty participant in award 1, made false
publication claims in his biographical information in award 1. Subject 2's ctmdnrltpn v k
listed a total of five publications. Three of the publications were verified through various
searches of the scientific literature. The remaining two titles were listed as "in revisionn with
a particular journal.' These titles have not been published in that journal. However, they
were not described as published in subject 2's d        mvirae. Based on our verification of
subject 2's published publication claims, we conclude that no false publication claims were
made in the biographical information about subject 2 in award 1.

The complainant suggested that we check the accuracy of the biographical information in
award 2 about subject 3, the PI of award 2. Due to the lack of any specific allegation, we
decided to verify only that biographical information for which known facts were
independently accessible. The seven most recent publications listed by subject 3 were
verified through various searches of the scientific literature. Also, we were able to confirm
subject 3's B.S., M.S., and Ph.D. degrees. We found no misrepresentations in subject 3's
biographical information in award 2.

The complainant alleged that a flyer, advertising graduate research fellowships funded
through award 1, contained misleading information because it lists faculty members who,
under institutional regulations, cannot serve as research advisors to graduate students. The
exact role of the listed faculty members in regard to prospective graduate students is not
stated on the flyer. As the relevant NSF program announcement8does not define the role of




1
2
3


5
    Footnotes Redacted
6
7
8




                                          Page 1 of 2                                   M99-18
                                  Closeout for M99030018

the principal faculty participants in the project either, we conclude that no misleading
information was stated on the flyer.

This inquiry is closed and no further action will be taken.



cc: Integrity, IG




                                         Page 2 of 2
